<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                 
                          [H.A.S.C. No. 115-80]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

 U.S. STRATEGIC FORCES POSTURE AND THE FISCAL YEAR 2019 BUDGET REQUEST

                               __________

                              HEARING HELD
                             MARCH 7, 2018


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                __________
                                                    

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-458                       WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------

                                     
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

DOUG LAMBORN, Colorado               JIM COOPER, Tennessee
DUNCAN HUNTER, California            SUSAN A. DAVIS, California
MO BROOKS, Alabama                   RICK LARSEN, Washington
JIM BRIDENSTINE, Oklahoma            JOHN GARAMENDI, California
MICHAEL R. TURNER, Ohio              BETO O'ROURKE, Texas
MIKE COFFMAN, Colorado               DONALD NORCROSS, New Jersey
BRADLEY BYRNE, Alabama               COLLEEN HANABUSA, Hawaii
SAM GRAVES, Missouri                 RO KHANNA, California
JODY B. HICE, Georgia
                Sarah Mineiro, Professional Staff Member
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Hyten, Gen John E., USAF, Commander, U.S. Strategic Command......     6
Rood, Hon. John C., Under Secretary of Defense for Policy, 
  Department of Defense..........................................     1

                                APPENDIX

Prepared Statements:

    Hyten, Gen John E............................................    27
    Rogers, Hon. Mike............................................    19
    Rood, Hon. John C............................................    21

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Brooks...................................................    59
    Mrs. Davis...................................................    59
    Mr. Garamendi................................................    62
    Mr. Larsen...................................................    60
    Mr. Rogers...................................................    49
    Mr. Smith....................................................    58
    Mr. Turner...................................................    60
 
. 
 U.S. STRATEGIC FORCES POSTURE AND THE FISCAL YEAR 2019 BUDGET REQUEST

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                          Washington, DC, Wednesday, March 7, 2018.
    The subcommittee met, pursuant to call, at 3:29 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. This hearing of the Strategic Forces Committee 
of the House Armed Services will come to order.
    I want to ask unanimous consent that Mr. Carbajal be 
allowed to sit on this hearing since he is a member of the full 
HASC [House Armed Services Committee].
    Without objection, so ordered.
    We are pleased today to have two witnesses with us, General 
John Hyten, Commander, U.S. Strategic Command, no stranger to 
this subcommittee; and a newer one, Mr. John Rood, Under 
Secretary for Defense Policy.
    Thank you both for testifying and being here with us today. 
We know it takes a lot of time to get ready for these hearings, 
and we appreciate the time you put into it and your service to 
our country.
    What we are going to do, because we are going to be called 
for votes at 4 o'clock--Jim and I are going to--the ranking 
member and I are going to submit our opening statements for the 
record so that we can go directly to questions if that is okay 
with you all.
    Without objection, so ordered.
    And what I will do is I will ask either one of you, who 
wants to start first with your opening statement? And we will 
recognize Mr. Rood for your opening statement.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 19.]

STATEMENT OF HON. JOHN C. ROOD, UNDER SECRETARY OF DEFENSE FOR 
                 POLICY, DEPARTMENT OF DEFENSE

    Secretary Rood. Thank you, Mr. Chairman, Ranking Member 
Cooper, distinguished members of the committee. Thank you for 
the opportunity to testify on the President's fiscal year 2019 
budget request for strategic forces.
    In terms of the security environment and strategic 
priorities, I will just briefly summarize that.
    Today the United States faces an increasingly complex 
global security environment in which the central challenge to 
our prosperity and security is the reemergence of long-term 
strategic competition by revisionist powers in China and 
Russia.
    While they pose separate challenges with unique attributes, 
both China and Russia seek to reshape the world order and 
change territorial borders. Consequently, they pose increasing 
security threats to us, our allies, and our partners.
    Long-term competition with China and Russia requires 
increased U.S. and allied military investment, because of the 
magnitude of the threats they pose today and the potential that 
these threats will increase in the future.
    We must also simultaneously strengthen our efforts to deter 
and counter the clear and present dangers posed by rogue 
regimes such as North Korea and Iran.
    The U.S. military remains the strongest in the world. 
However, our advantages are eroding as potential adversaries 
modernize and build up their conventional and nuclear forces. 
They now field a broad arsenal of advanced missiles, including 
variants that can reach the American homeland.
    For example, only last week Russian President Putin claimed 
publicly that Russia now possesses unprecedented new types of 
nuclear forces with which to target the U.S. and our allies.
    While this picture is unsettling and clearly not what we 
desire, as Secretary of Defense Mattis has pointed out, quote, 
``We must look reality in the eye and see the world as it is, 
not as we wish it to be,'' end quote.
    The administration has heeded this admonition in our recent 
strategic reviews: the National Security Strategy, the National 
Defense Strategy, and the Nuclear Posture Review. They reflect 
a consistent and pragmatic assessment of threats and 
uncertainties we face regarding the future security 
environment.
    Our task at the Defense Department is to ensure that the 
U.S. military advantages endure and, in combination with other 
elements of national power, that we are fully able to meet the 
increasing challenges to our national security.
    Weakness invites challenges and provocation, but as both 
George Washington and Thomas Jefferson observed, American 
strength deters war and promotes peace. It also assures our 
allies and attracts new partners.
    Strengthening our alliances and attracting new partners is 
a critical element of retaining our advantages. As the National 
Defense Strategy points out, quote, ``Mutually beneficial 
alliances and partnerships are crucial to our strategy, 
providing a durable, asymmetric advantage that no competitor or 
rival can match. This approach has served the United States 
well in peace and war,'' end quote.
    The 2018 Nuclear Posture Review reflects DOD's [Department 
of Defense's] strategic priority to maintain a safe, secure, 
survivable, and effective nuclear deterrent. The logic of the 
NPR [Nuclear Posture Review] was best articulated by Secretary 
Mattis when he said, quote, ``This review rests on a bedrock 
truth: Nuclear weapons have and will continue to play a 
critical role in deterring nuclear attack and preventing large-
scale conventional warfare between nuclear-armed states for the 
foreseeable future. U.S. nuclear weapons not only defend our 
allies against conventional nuclear threats, they also help 
them avoid the need to develop their own nuclear arsenals. This 
in turn furthers global security,'' end quote.
    Effective deterrence is critical to our security, and in a 
complex and dynamic security environment there is no one-size-
fits-all approach to deterrents. The requirements for effective 
U.S. deterrence can vary greatly depending on the perceptions, 
goals, interests, strengths, strategies, and vulnerabilities of 
different potential adversaries.
    The deterrent strategy effective against one potential 
adversary may not deter another. Consequently, the 2018 NPR 
calls for the United States to tailor deterrence as necessary 
across a spectrum of adversaries, threats, and contexts.
    The 2018 NPR confirms the findings of all previous NPRs 
that the diverse capabilities of the nuclear triad provide the 
flexibility and resilience needed for deterrence. 
Unfortunately, each leg of the triad is now operating far 
beyond its originally planned service life. Consequently, we 
must not delay the recapitalization of the triad initiated by 
the previous administration.
    We're off to a good start. The 2019 budget request funds 
all critical Defense Department modernization requirements, 
helping to ensure that modern replacements will be available 
before the Nation's legacy systems reach the end of their 
extended service lives.
    The fiscal year 2019 budget request for nuclear forces is 
$24 billion, which includes $11 billion for nuclear force 
sustainment and operations; $7 billion for recapitalization 
programs, including the LRSO [Long Range Standoff Weapon], B-
21, GBSD [Ground Based Strategic Deterrent], and Columbia-class 
SSBN [ballistic missile submarine]; and $6 billion for nuclear 
command, control, and communications.
    In addition, the President's budget request includes two 
supplemental capabilities to enhance deterrence against 
emerging challenges in the near- and mid-term. The Department 
requests funds to modify a small number of existing SLBM 
[submarine-launched ballistic missile] warheads to provide a 
low-yield ballistic missile option in the near-term.
    We also request funds to initiate an analysis of the 
performance requirements and costs to pursue a modern nuclear-
armed sea-launched cruise missile that could be available in 
the mid-term.
    These proposed supplements would contribute to deterrence 
by raising the threshold for nuclear use. They would do so by 
denying potential adversaries confidence that their coercive 
threats of limited nuclear first use or actual first use can 
provide a useful advantage over us and our allies.
    These supplements do not and are not intended to mimic 
adversary nuclear capabilities. They can nonetheless help 
address the imbalance in U.S. and Russian non-nuclear strategic 
forces and create incentives for Russia to return to compliance 
with its nuclear arms control commitments.
    The U.S. commitment to nonproliferation and arms control 
remains strong. The U.S. remains committed to all of our 
obligations under the Nuclear Non-Proliferation Treaty, 
including Article VI. We will continue to use arms control 
measures like the New START [Strategic Arms Reduction] treaty, 
nonproliferation measures, and counter-nuclear terrorism 
measures to advance the security of the United States and our 
allies and partners.
    Let me now turn to missile defense. The Department's fiscal 
year 2019 budget request supports the President's directions as 
set out in the National Security Strategy to develop a layered 
missile defense system to protect the American homeland from 
North Korean and Iranian missile threats. Our missile defense 
system not only protects the American people, it strengthens 
deterrence of war and assurance of allies.
    Today, the Ground-based Midcourse Defense [GMD] system 
provides this protection for the U.S. homeland. It consists of 
44 ground-based interceptors [GBI] deployed in Alaska and 
California; land-, sea-, and space-based sensors; and a command 
and control system.
    We are strengthened in this GMD system and investing in 
technologies to ensure that we can continue to counter rogue 
state missile threats to our homeland. Doing so is one of our 
highest priorities.
    For this purpose, last September DOD requested the 
reprogramming of fiscal year 2017 funding of over $400 million 
to counter the North Korean missile threat. Congress approved 
this request.
    A portion of these funds support important homeland defense 
activities, including initiating work on the procurement of 20 
additional ground-based interceptors in Alaska as early as 
2023, which will bring the total to 64 fielded interceptors. 
The reprogramming also funded a service life extension to the 
COBRA DANE radar in Alaska and software upgrades to the Sea-
Based X-band radar.
    In November, the President submitted an amendment to his 
fiscal year 2018 budget request for $4 billion for homeland and 
regional missile defense, which included construction of a new 
missile field at Fort Greely, Alaska, and additional 
procurement for 20 additional GBIs.
    The fiscal year 2019 budget request includes $9.9 billion 
for the Missile Defense Agency and $3 billion for air and 
missile defense activities in the military services. The budget 
includes funding for a more capable GBI with the Redesigned 
Kill Vehicle, the deployment of new missile tracking and 
discrimination sensors in Alaska, Hawaii, and the Pacific 
region, and a new Space-based Kill Assessment capability.
    We are also moving forward to bolster homeland defenses 
against air and cruise missile threats. In 2018, we will 
complete the first part of a two-phase effort to provide 
surveillance against these threats for the National Capital 
Region. Doing so will enhance our ability to detect, track, and 
investigate suspicious aircraft, as well as cruise missiles, 
and when necessary, cue our missile defense systems.
    We are on track to complete the second phase of this effort 
in fiscal year 2019. We are also looking into technologies and 
concepts that could be used to provide scalable and deployable 
options for the rest of North America.
    The Department's fiscal year 2019 budget request also 
continues deployment of regional missile defenses tailored to 
meet threats to U.S. forces abroad, allies and partners in 
Europe, the Middle East, and the Asia-Pacific region. The 
budget seeks to enhance our regional missile defense capability 
through additional Patriot, THAAD [Terminal High Altitude Area 
Defense], and SM-3 [Standard Missile-3] Block IB and IIA 
interceptors.
    Because systems such as Patriot and THAAD and our Aegis 
ballistic missile defense capable ships can be surged when and 
where required, they make it possible to deploy layered missile 
defense capabilities that are responsive to regional missile 
threats as they arise.
    We are encouraging our allies and partners to acquire 
missile defense capabilities and to strengthen cooperation and 
interoperability. We are pleased with the progress at NATO 
[North Atlantic Treaty Organization] to build greater missile 
defense capabilities and important collaborative efforts with 
allies in the Middle East and Asia.
    Potential adversaries are modernizing and expanding their 
missile capabilities. We must ensure, therefore, our missile 
defense investment strategy and priorities enable us to meet 
the most dangerous threats we face today, while also enabling 
us to counter future missile threats as they expand.
    Areas for work on advanced technology include improved 
discrimination in our missile defense system sensor 
architecture, lasers to intercept offensive missiles during 
their most vulnerable boost phase of flight, and the multi-
object kill vehicle.
    With respect to our space policy and posture, let me say 
U.S. space systems are essential to our prosperity, security, 
and way of life; and DOD's space capabilities are critical for 
effective deterrence, defense, and U.S. force projection 
capabilities. Consequently, DOD must be prepared to address 
threats to our national security assets located in space.
    Due to the critical importance of these assets, the 
National Security Strategy states, quote, ``Any harmful 
interference with or an attack upon critical components of our 
space architecture that directly affects this vital U.S. 
interest will be met with a deliberate response at a time, 
place, manner, and domain of our choosing,'' end quote.
    The President's fiscal year 2019 budget request includes 
$12.5 billion to take steps to establish a more resilient, 
defendable space architecture. This is an increase of $1.1 
billion from the fiscal year 2018 budget request.
    The United States, however, I would add, does not fight 
alone. Bringing together our allies and partners to share 
capabilities and information strengthens deterrence and 
defense. Cost-sharing agreements, hosting U.S. national 
security payloads on foreign systems, and data-sharing 
arrangements to bolster shared space situational awareness are 
just a few of the opportunities that our allies and partners 
provide.
    Mr. Chairman, let me conclude by stating that in this 
increasingly complex and threatening security environment the 
Defense Department must sustain the capabilities needed to 
deter and defend against attacks on our homeland, U.S. forces 
deployed abroad, allies and partners. We must make the 
investments needed to address the ongoing erosion of our 
advantages and remain the preeminent military power in the 
world.
    Along with our allies and partners we must ensure that we 
have the capabilities needed now and in the future to protect 
our people and the freedoms we so cherish, and are able to 
engage potential adversaries diplomatically from a position of 
strength. To do so, I urge you to support the important 
capabilities funded in the President's fiscal year 2019 budget 
request.
    Thank you, Mr. Chairman, for the opportunity to be here 
before you today.
    [The prepared statement of Secretary Rood can be found in 
the Appendix on page 21.]
    Mr. Rogers. Thank you.
    General Hyten, you are recognized for your opening 
statement.

STATEMENT OF GEN JOHN E. HYTEN, USAF, COMMANDER, U.S. STRATEGIC 
                            COMMAND

    General Hyten. Thank you, Mr. Chairman, Ranking Member 
Cooper. It is an honor to be here today with Under Secretary 
Rood. And it is a continuing privilege to represent the 184,000 
Americans that serve the missions of U.S. Strategic Command.
    I want to start by thanking this committee for your 
enduring support for our Nation's defense. And with your 
approval, I would like my full statement to be made part of the 
record.
    Mr. Rogers. So ordered.
    General Hyten. So as we begin today, it is important for me 
to note that although we now have a bipartisan budget act, 
which is a very significant step to ensuring our future 
security, we are nonetheless still operating under a continuing 
resolution which will expire on March the 23rd. So I 
respectfully request quick action by the Congress to pass a 
final budget to ensure that our All-Volunteer Force remains 
fully trained and equipped to meet not only the threats of 
today, but the emerging threats of the future.
    And the first and most important message I want to deliver 
today is that the forces under my command are fully ready to 
deter our adversaries and respond decisively should that 
deterrence fail. We are ready for all the threats that are out 
there, and no one--no one--should doubt this. We just have to 
make sure that future STRATCOM [U.S. Strategic Command] 
commanders will always be able to make that statement.
    Because we are a global warfighting command, we set the 
conditions across the globe. As the ultimate guarantor of our 
national and allied security, our forces and capabilities 
underpin and enable all other joint force operations.
    We are a global warfighting command. The strength of the 
command is its people. The soldiers, sailors, airmen, Marines, 
and civilians of the enterprise have the most important mission 
in our entire Department. Their hard work and dedication ensure 
our Nation's strategic capabilities remains safe, secure, 
reliable, and ready. And sustained congressional support will 
ensure that we remain ready, agile, and effective for deterring 
strategic attack, assuring our allies and partners today and in 
the future.
    Secretary Rood already talked about the NPR. He also talked 
about our modernization. I will defer the comments I have on 
that to your questions and answers.
    So, Mr. Chairman, thank you for the opportunity to be here 
again today, and I look forward to taking your questions.
    [The prepared statement of General Hyten can be found in 
the Appendix on page 27.]
    Mr. Rogers. Thank you, General Hyten.
    Thank you both for being here as we begin to examine the 
President's fiscal year 2019 budget proposal.
    I will recognize myself first for questions.
    Under Secretary Rood, many discuss strategic stability in 
the context of missile defense and the need to be cognizant of 
how the U.S. actions, development efforts, and deployment of 
capability can disrupt this balance.
    From your perspective, especially in light of the recent 
statements from Russia regarding their capability to strike the 
U.S. with a quote, ``invincible weapon,'' close quote, can our 
missile defense systems be compared to what is being done by 
Russia and China that threaten this strategic stability?
    Secretary Rood. Mr. Chairman, the missile defense system 
that the United States has developed and fielded to date would 
not have the capability to negate the Russian or Chinese 
strategic nuclear arsenal. That has not been our planning focus 
and the capabilities developed do not enable us to do that.
    I think the statements made by Russian President Putin, 
while not surprising, were nonetheless disappointing. While we 
have been aware of the development of Russia's capabilities and 
watching with concern some of the development that has occurred 
in terms of Russia's doctrine and their exercise program, it is 
nonetheless disappointing to see that the President of Russian 
Federation choose to feature these capabilities in the way that 
he did.
    I think with respect to China, they are developing a very 
large strategic offensive nuclear force, and so that is of 
concern. Both countries are pursuing hypersonic weapons and 
other capabilities and their behavior in the cyber domain and 
elsewhere concerns us.
    All of those things as a piece are concerning and why in 
the National Defense Strategy we highlighted those two 
countries as our primary and central focus for our national 
security efforts going forward.
    Mr. Rogers. Great.
    Recently, President Putin announced that Russia was 
pursuing and fielding four new nuclear weapons because the U.S. 
refuses to engage in arms control and is developing missile 
defenses to thwart Russia's strategic forces. Are these 
reactions to the 2018 NPR or have they been in development for 
years?
    Secretary Rood. No, you are correct, Mr. Chairman. Those 
capabilities have obviously been in development for quite some 
time. President Putin talked about their maturity. They are 
clearly not capabilities that were developed within the last 
few months or last year. They have been at work.
    With regard to our commitment to arms control, the United 
States remains committed to our arms control obligations. That 
remains unchanged. Regrettably, the Russian Federation's track 
record in terms of its adherence to its arms control 
obligations leaves a great deal wanting.
    As you know, it has been a policy of the United States 
Government, in the last administration and this, to find that 
Russia is in violation of its commitments under the INF 
[Intermediate-Range Nuclear Forces] Treaty, for example. We 
have seen Russian violations on other agreements.
    Nonetheless, we remain committed to our obligations in the 
New START treaty and prepared to have conversations in this 
regard with our Russian colleagues. But I think it would be a 
mistake to assign the development of capabilities that have 
been at work for many years to any developments that happened 
in the last few months.
    Mr. Rogers. You made reference in your opening statement to 
the additional 20 GBIs that we authorized and appropriated 
money for in this current NDAA [National Defense Authorization 
Act], which we are all very excited about, because while we did 
have 44, you know they all aren't available at all times 
because of work that is having to be done on some of them.
    But I am a big believer that that 20 was a good start to 
where we need to go. I would be curious to know your thoughts 
and General Hyten's thoughts on the need for more after these 
20 are implemented, given the threats around the world and our 
shot doctrine, which we won't go into.
    Secretary Rood. Yes, sir.
    Regrettably, the missile threats that we face around the 
world, that threat picture is continuing to mature, both in 
scale and in complexity. It is incumbent on us that we continue 
to maintain the ability to defend this Nation from those kinds 
of ballistic missile capabilities in the hands of countries 
like North Korea and Iran.
    And so we have sought, as you noted, in the reprogramming 
request and the supplemental budget request last year to give a 
boost to those efforts, and the fiscal year 2019 budget request 
carries that forward.
    It is always--and this is one of the questions we are 
seeking to answer as part of the Missile Defense Review--what 
is the best way of doing that? The additional systems, such as 
the GBIs, measured as well with sensor capabilities and 
improvements in discrimination, and the robustness of the 
overall architecture.
    And so all of those things working as a system of systems 
to produce the improvement is what we are trying to optimize. 
And so clearly greater capability than what the United States 
possesses today will be required. And the threat is not 
resting. So we must keep pace with it.
    General.
    General Hyten. So I believe you will see the details in the 
Missile Defense Review shortly. But I have been consistent in 
my view that we need to continue to monitor the missile defense 
capabilities that we are building to make sure they respond to 
the threats that we face. And I believe that prioritization of 
resources that we have in the future should go along the 
following construct.
    The first thing we need is better sensor capability, better 
tracking capabilities, to make sure we understand and can 
characterize and then respond to that threat.
    The second piece we need is better kill vehicles on the top 
of our interceptors, so that those kill vehicles become more 
and more lethal in terms of their ability to respond.
    And then the third thing we need is more capacity.
    I think we have to do those three things simultaneously. I 
think those are the priorities that I have, that I have stated, 
both in my statement for the record, as well as multiple times 
over the year. I will continue to be consistent in pushing for 
those three elements of future missile defense capabilities.
    Mr. Rogers. Okay, great.
    My last question is for you, General Hyten. You are known 
to say that you want to see us go fast, faster than we have 
been going. And one of the reasons, as I understand it, that 
the Missile Defense Agency was created was so it could go 
faster, and it was pulled out from the Department for that 
reason.
    There is discussion now about pulling it back into the 
Department under the R&E [Research and Engineering] section. I 
am concerned that that is going to bureaucratize it again and 
slow it down. What are your thoughts about that?
    General Hyten. So I hate bureaucracy. I hate any additional 
bureaucracy that causes the Department to go slow.
    I don't think the organizational issue is necessarily a 
concern. I like the authorities the Missile Defense Agency has. 
And whatever structure we talk about coming out of the Missile 
Defense Review, we have to make sure that we maintain those 
authorities to allow it to go fast.
    We can still go faster on the missile defense side as well. 
The one thing I will point out about R&E, though, is that Mike 
Griffin has now been confirmed to be R&E in the Department of 
Defense. There is nobody I know that is more technically sound 
and hates bureaucracy and wants to go fast than Mike Griffin.
    So I believe there is a partnership there that can be made. 
But I would not advocate for lessening the authorities that the 
Missile Defense Agency has right now.
    Mr. Rogers. Thank you very much.
    The Chair recognizes the ranking member for any questions 
he may have.
    Mr. Cooper. Thank you, Mr. Chairman. Thank the witnesses.
    In view of the number of participants in this hearing and 
the shortness of time, I am going to defer my question to the 
closed session. Thank you.
    Mr. Rogers. The Chair now recognize the gentleman from 
Colorado, Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. Thank you both for 
being here and the ways that you have served our country.
    Thank you, General Hyten, for coming by earlier. It is 
always good to touch base.
    And because of the shortness of the time, like the ranking 
member said, I am just going to ask one question, and this is 
for both of you.
    We all know that--and you have just addressed it, General 
Hyten--that we need to have better space sensors. We need to 
look for other strategic uses of directed energy and things 
like that so we stay ahead of potential adversaries.
    But when I look at the fiscal year 2019 President's budget, 
I see that those kinds of things are zeroed out. So what is 
going on there from a funding standpoint?
    Secretary Rood. In terms of what is going on from a funding 
standpoint for efforts to be zeroed out for directed energies?
    Mr. Lamborn. No. For, well, space sensors in particular and 
the missile defense tracking system, which is a space-based 
sensor layer.
    General Hyten. So I will address that, Congressman Lamborn.
    So as you look across those pieces, and you talked about 
the need for increased space sensors and where that is in the 
2019 budget, you talked about the need for directed energy 
pieces.
    So concerning the midcourse tracking system, the MTS 
system, it was in the 2018 supplemental for MDA [Missile 
Defense Agency], a small number, I think, somewhere over $10 
million, to begin the pursuit of that capability. We had that 
discussion within the Department.
    The Department made a decision that what we will do in the 
2019 budget, and you will find it actually in the Air Force 
budget line, under the missile warning sensor technology, a 
line for $42 million to build demonstration capabilities to 
explore that piece. That $42 million will go at developing the 
technology we need for those capabilities.
    The second piece of the puzzle, maybe more important, is 
not a funding issue, and that is the United States Air Force 
and the Missile Defense Agency this year, under the Department 
of Defense, have agreed to get together to work out an 
integrated set of requirements and programs for how we use 
space and the infrared [IR] element in space, overhead 
persistent IR, to do all of these missions, and to come into 
the Department and come into the Congress next year with a 
fully integrated program to do the missile warning missions, 
the missile defense missions, the threat characterization 
missions, all those pieces together.
    So that work will be ongoing this year, while at the same 
time the technology work will be ongoing. Nonetheless, I have 
advocated for that capability for a long time, 30 years of my 
life I have advocated. I believe we are ready to go into that. 
We need to move quickly. I appreciate where the Department is 
on that. We have to make the decisions this year where we are 
going in the future.
    Mr. Lamborn. Okay. Thank you so much. I understand better 
that things are moving forward. My initial impression and my 
staff needed to be updated, so I really appreciate that. I am 
glad to see that these efforts are indeed starting to pay off. 
Thank you.
    And I yield back the balance of my time.
    Mr. Rogers. The gentleman yields back.
    The Chair now recognizes the gentlelady from California, 
Mrs. Davis, for any questions you may have.
    Mrs. Davis. Thank you, Mr. Chairman. I will defer to closed 
session as well.
    Mr. Lamborn. The Chair now recognize the gentleman from 
Alabama, Mr. Brooks, for his questions.
    Mr. Brooks. Thank you, Mr. Chairman.
    It is always good to see General Hyten, a local boy done 
well, from Huntsville, Alabama. I don't know if the chairman 
mentioned that, but I wanted to emphasize it.
    Mr. Rogers. Roll Tide.
    General Hyten. Roll Tide, for the record.
    Mr. Brooks. All right. That works with me. And also, go 
Duke Blue Devils, since that is my other alma mater. But that 
doesn't do so well with those Carolina folks.
    Mutually assured destruction doctrine, that has kept the 
peace to a very large degree between the United States and 
China on the one hand, and the Soviet Union, now Russia, on the 
other.
    With the improvements in technology and capabilities of 
China and Russia, does the mutually assured destruction 
doctrine still work or have either China or Russia been able to 
get to the point where they have been able to overcome that 
counterthreat that has helped keep the peace?
    Secretary Rood. Congressman, nuclear deterrence remains 
vitally important to our country. We rely principally on 
nuclear deterrence to address those kinds of challenges from 
Russia and China, and certainly to an extent other countries, 
such as North Korea.
    I think the concepts and the fundamentals of nuclear 
deterrence still hold in this environment, but in the way that 
we approach those, utilize those fundamental principles, we 
need to be more supple and more tailored and have a broader 
range of capabilities in our approach. And the Nuclear Posture 
Review talks about a tailored approach to deterrence.
    For example, we are concerned about some of the doctrine we 
see emanating from Russia, talking about early escalation, a 
greater reliance on nuclear capabilities in a conflict, perhaps 
some mistaken belief that the United States and our allies 
would not have the ability to respond to those sorts of 
capabilities.
    And so what you see in the Nuclear Posture Review is a 
recommendation for some supplementary capabilities, because 
nuclear deterrence is not static and it won't be one-size-fits-
all. We have to update our tool kit and be flexible in our 
application of our principles and our tools to deal with this 
new environment.
    So I think nuclear deterrence still holds and it is still a 
bedrock principle of our defense capability, but our 
application of it, we need to adjust ourselves to the new 
environment we face in order to keep the nuclear threshold high 
and not allow for some erosion of that.
    Mr. Brooks. Assuming for the moment that we do not update 
our tool kit, to use your phraseology, how long do you think it 
would be before the mutually assured destruction doctrine no 
longer worked with China and Russia? Are we talking years or 
decades?
    Secretary Rood. It is a hard question to answer because the 
circumstances in which it may arise and the contexts in which 
we face these kinds of challenges would be the case. There is 
the technical capabilities, the destructive capabilities that 
are on a certain vector in Russia and China, but there are also 
the specific consequences and circumstances around an 
application.
    So the short answer to your question, Congressman, would 
be, it is very hard to predict, but I don't recommend that we 
take the risk of remaining static and not being flexible and 
adjusting our approach and our capabilities as we go forward.
    Mr. Brooks. I understand it is hard to give an estimate, 
but do you have an opinion or a judgment that you can share 
with us as to when we need to start feeling insecure about the 
mutually assured destruction doctrine that has kept a nuclear 
war at bay for roughly six decades?
    General Hyten. So, Congressman, I don't think we have to 
worry about that for at least a decade.
    Mr. Brooks. Okay.
    General Hyten. I think the capabilities that we have that 
we will operate for the next decade will allow us to maintain 
the basis of nuclear deterrence.
    But what we have to guard against is we have to guard 
against a miscalculation on behalf of our potential 
adversaries, particularly Russia and China. We can't allow them 
to think that they can employ a nuclear weapon, whether on the 
battlefield or strategically, and the United States will not be 
able to respond.
    That is why the mix of capabilities, the diverse 
capabilities that we talk about in a Nuclear Posture Review, 
help us to increase that deterrent posture. It raises the bar 
for the Russians or the Chinese to take that step across the 
line and do something foolish that would cause a significant 
issue.
    But there is nothing they can do outside of a massive 
attack against our country that we would not have the ability 
to respond to. And, oh, by the way, our submarines, they do not 
know where they are, and they have the ability to decimate 
their country if we go down that path.
    So I am confident in that. But we have to modernize these 
capabilities, because 10, 12 years from now all the 
capabilities that I operate today will be reaching end of life. 
We can't allow that to happen without modernizing and replacing 
them.
    Mr. Brooks. I agree with learning from history, and 
certainly with what happened on December 7, 1941, in Pearl 
Harbor indicates that it is best to make sure that the other 
side knows that we are always capable of doing more than they 
want to deal with.
    So it seems that our missile interceptor system, to a very 
large degree, is designed to deal with rogue lesser nations 
like North Korea and perhaps Iran. How many interceptors do you 
think we need in the near future, how many more? And also, do 
you think we need an East Coast interceptor system as Iran 
appears to become more and more capable?
    And I am almost out of time, so I don't know if the 
chairman will allow an answer or not.
    Mr. Rogers. Briefly.
    Secretary Rood. The precise number of interceptors is one 
of the things we are evaluating as part of the Missile Defense 
Review. In our budget request you see a request for an increase 
up to 64, that we will initially--those are our present plans 
for ground-based interceptors. We are looking at a mix of 
capabilities to improve that, to include the potential for a 
third site, but we haven't yet made a formal decision as to 
whether to pursue that and where.
    Mr. Brooks. Thank you. Thank you, Mr. Chairman.
    Mr. Rogers. What we are going to do, we have been called 
for votes. I am going to recognize Mr. Norcross from New Jersey 
and then Mr. Hunter from California. Then we are going to 
recess while we go vote and we will come back to the closed 
session after that.
    So the gentleman from New Jersey is recognized for 5 
minutes.
    Mr. Norcross. I don't need 5 minutes. I will wait for 
closed session, Mr. Chairman.
    Mr. Rogers. We are moving along.
    The gentleman from California is recognized.
    Mr. Hunter. Thank you, Mr. Chairman. I am going to go ahead 
and ask.
    General Hyten, multiple combatant commanders, including 
yourself, have expressed a need for boost-phase intercept 
capability, yet there is not a single line in MDA's budget to 
holistically address. It could be the same answer you gave to 
Mr. Lamborn. You do mention nascent energy, directed energy 
efforts. Super risky. Super new.
    From your perspective, I guess this is down to brass tacks 
here, what is the fastest way to get boost-phase intercept in 
the hands of the warfighter?
    General Hyten. So, Congressman, boost-phase intercept is an 
area of significant interest to STRATCOM. We have stated 
clearly our requirement to move as far left as we can, 
including left of launch, to get after the missile defense 
threat. If you noticed, the review that is currently underway 
has changed from a ballistic missile defense review to an 
overall defense review to talk about all of those things. I 
expect those things will be discussed in the Missile Defense 
Review as well.
    But, to me, it is really not a technical question. To me, 
it is a policy question. And the challenge that we have is that 
if it is a kinetic weapon and we want to attack in the boost 
phase, that means we have to employ a kinetic weapon inside an 
adversary's territory. That is a significant decision for the 
policymakers in order to make.
    I am a big fan of continuing to pursue directed energy, as 
Congressman Lamborn talked about a while ago, because I think 
the great thing about directed energy is that, if we can employ 
that in that kind of, directed energy actually continues out 
into space, it does not come down in an adversary's territory.
    The technology is advancing rapidly in that area right now. 
But I will also point out that we have been working that for 
multiple decades now. And I had a boss once that told me: Just 
remember, you know directed energy has always been 5 years 
away. So we have to be careful not to put too much, too many 
eggs in one basket.
    Mr. Hunter. But you only mentioned directed energy. In 
MDA's budget it only talks about directed energy, nothing else.
    General Hyten. We will talk about, we can talk about 
details in the classified session. It would be much more 
effective to talk about the details in the classified session.
    Mr. Hunter. Okay. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Rogers. I hate that we get interrupted for votes. We 
have quality witnesses like you and we have a lot of questions. 
But they didn't ask us when we get called for votes. So we are 
going to have to recess. And your time is valuable.
    So we are going to meet in closed session when we return. 
We will be gone for about 20 minutes.
    So with that, we are now in recess.
    [Whereupon, at 4:07 p.m., the subcommittee proceeded in 
closed session.]

     
=======================================================================

                            A P P E N D I X

                             March 7, 2018

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 7, 2018

=======================================================================
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 7, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. STRATCOM has been providing foundational space 
situational awareness data to non-USG entities in accordance with 
10USC2274 since 2012. At a time when legitimate DOD space situational 
awareness requirements will be increasing, does it still make sense for 
STRATCOM to be providing this data to the public or is this better 
suited to a different federal agency?
    Secretary Rood. Pursuant to Title 10, U.S. Code, Section 2274, the 
Department of Defense (DOD), through U.S. Strategic Command, provides a 
variety of space situational awareness (SSA) data and services to non-
U.S. Government entities worldwide. These SSA data and services promote 
space flight safety, protection of the space environment, and 
contribute to the U.S. vital interest in unfettered access to and 
freedom to operate in space. DOD is the only U.S. Government entity 
currently capable of providing these SSA support services. However, 
providing such SSA support services to non-U.S. Government entities is 
not inherently a military mission. A different Federal department or 
agency could perform this function if provided appropriate resources 
and authorities.
    Mr. Rogers. Under Secretary Rood, Secretary Mattis is now the third 
consecutive Secretary of Defense that has identified nuclear deterrence 
as the highest-priority mission of the Department of Defense. Do you 
believe 6 or 7 percent of our defense budget is an appropriate level of 
spending for the nation's #1 priority defense mission? Do you believe 
this is affordable?
    Secretary Rood. Yes. Maintaining an effective nuclear deterrent is 
much less expensive than fighting a war that we fail to deter. We can 
afford this level of investment against one of the few existential 
threats that we face.
    Mr. Rogers. Under Secretary Rood, do you believe DOD should develop 
a detailed 30-year cost estimate for modernizing, sustaining, and 
operating our nuclear force? Do you believe this type of report would 
be accurate and useful, or just inject misleading information into the 
debate? Do you believe the current 10-year plan and estimate DOD 
already provides each year to Congress is sufficient?
    Secretary Rood. The Department of Defense (DOD) has multiple tools 
with which to assess the cost of modernizing, sustaining, and operating 
U.S. nuclear forces. DOD's primary tool is the current 10-year plan and 
estimate that we provide to Congress annually. We believe this is the 
best mechanism for formally reporting costs to Congress because it is a 
more reliable estimate given large degrees of uncertainty, such as 
inflation, material costs, and labor rates inherent in any longer term 
estimate of the nuclear enterprise. A 30-year estimate would introduce 
a high degree of uncertainty that would risk providing Congress with 
imprecise and potentially misleading data.
    Mr. Rogers. Under Secretary Rood, how do the supplemental 
capabilities proposed by the NPR--a low-yield submarine-launched weapon 
and a sea-launched cruise missile--help shore up deterrence and 
assurance in this new era of great power competition?
    Secretary Rood. The low-yield ballistic missile (LYBM) and sea-
launched cruise missile (SLCM) are necessary to address our concerns 
that potential adversaries may believe they can effectively threaten or 
employ limited nuclear strikes. These supplemental capabilities, along 
with the existing elements of our Triad, provide a diverse set of 
nuclear capabilities that will provide flexibility to tailor the U.S. 
approach to deterring different potential adversaries.
    Mr. Rogers. Under Secretary Rood, do the supplemental capabilities 
proposed by the NPR lower the threshold for nuclear use? Are they about 
nuclear warfighting or about ensuring conflict is avoided altogether? 
Do you believe the addition of these capabilities to the U.S. nuclear 
arsenal increase or decrease the likelihood of a nuclear war?
    Secretary Rood. By taking steps to help convince adversaries that 
even limited use of nuclear weapons will be more costly than they can 
tolerate, we in fact raise that threshold for nuclear weapons use, 
thereby decreasing the likelihood of nuclear war. The supplemental 
capabilities proposed by the NPR are intended to ensure conflict is 
avoided altogether and decrease the likelihood of nuclear war.
    Mr. Rogers. Under Secretary Rood, do we need a low-yield SLBM when 
we already have a low-yield nuclear gravity bomb? Are these 
capabilities redundant? How do adversary air defenses factor into the 
recommendation for a low-yield SLBM?
    Secretary Rood. The low-yield submarine-launched ballistic missile 
(SLBM) is highly survivable when deployed in ballistic missile 
submarines at sea, while our gravity bombs are more vulnerable in fixed 
storage and operating locations. SLBMs are highly accurate and, given 
their speed and trajectory, are better able to penetrate modern 
defenses that could challenge air-delivered weapons. The low-yield SLBM 
does not reduce the need for air-delivered gravity bombs and dual-
capable aircraft, which can be forward deployed, contribute to allied 
burden sharing, provide visible assurance to both allies and partners, 
and serve as a tangible demonstration of U.S. extended deterrence 
guarantees.
    Mr. Rogers. Under Secretary Rood, what is your assessment of the 
impacts from Russia's violation of the INF Treaty? What impact may this 
violation have on our military, defense posture, and that of our 
allies? How does the NPR and the administration's December 2016 Russia 
strategy propose to address this violation? How long should the U.S. 
continue to remain in the INF Treaty if Russia continues to violate it?
    Secretary Rood. Russia's violation of the Intermediate-range 
Nuclear Forces (INF) Treaty is a concrete threat to U.S. forces and to 
allies and partners in Europe and Asia. Therefore, the United States is 
pursuing an integrated strategy supported by diplomatic and economic 
measures as well as Treaty-compliant research and development actions 
intended to persuade Russia to return to full and verifiable 
compliance. This includes a review of U.S. options for conventional, 
ground-launched, intermediate-range missile systems which would enable 
the United States to defend ourselves and our allies and partners 
should Russia not return to compliance.
    Mr. Rogers. Under Secretary Rood, should we be considering 
extending the New START Treaty while Russia is violating the INF 
Treaty, violating the Open Skies Treaty, violating the Treaty on 
Conventional Forces in Europe, and failing to comply with the 
Biological Weapons Convention, the Chemical Weapons Convention, and 
many other arms control commitments? Do you believe we should pursue 
further nuclear arms control measures with Russia while Russia is in 
violation of so many existing arms control agreements?
    Secretary Rood. The United States remains willing to engage in a 
prudent arms control agenda. We are prepared to consider arms control 
opportunities that return parties to predictability and transparency, 
and remain receptive to future arms control negotiations if conditions 
permit and the potential outcome improves the security of the United 
States and its allies and partners. The United States will continue to 
implement the New START Treaty fully, which complements the U.S. 
nuclear deterrence strategy by contributing to a transparent and 
predictable strategic balance between the United States and Russia. We 
will consider next steps related to the New START Treaty at the 
appropriate time, taking into account Russia's compliance with its 
obligations under the New START Treaty and other arms control 
agreements.
    Mr. Rogers. Under Secretary Rood, were our allies consulted as the 
NPR was being considered and drafted? What did they say? How are they 
reacting to the proposal to continue the Obama administration's program 
of record and add two supplemental capabilities?
    Secretary Rood. Throughout the 2018 Nuclear Posture Review, we 
consulted extensively with allies and partners. They were unanimous in 
the view that the security environment has changed for the worse since 
2010; they offered a range of opinions on the environment and the 
continued need for nuclear deterrence; and they appreciated our efforts 
to consult with them. Our East Asian allies in particular appreciated 
the reaffirmation of U.S. extended deterrence commitments. In Europe, 
reactions were positive, particularly our proposed moves to strengthen 
deterrence, reaffirm our declaratory policy, and further the goals of 
the Treaty on Non-Proliferation of Nuclear Weapons. A number of 
European allies emphasized the importance of balancing deterrence with 
arms control and non-proliferation initiatives. Reactions to 
continuation of the U.S. nuclear modernization program were generally 
positive. No European allies objected to the inclusion of the 
supplemental capabilities. Many viewed these supplemental capabilities 
as an appropriate counter-balance to Russian, Chinese and North Korean 
developments. In briefings and meetings at NATO, Allies recently have 
reacted positively to the NPR.
    Mr. Rogers. Under Secretary Rood, the NPR recommends the U.S. 
retain the longstanding ability to forward-deploy dual-capable 
aircraft, like F-15s and eventually F-35s, around the world--not just 
in Europe. This includes Asia, correct? Why is the ability to deploy 
dual-capable aircraft like F-35s to Asia--in support of allies like 
Japan and South Korea--important? Do our dual-capable aircraft help 
reassure our allies in Asia? How have our Asian allies, particularly 
Japan and South Korea, reacted to the NPR?
    Secretary Rood. The United States will continue to maintain, and 
enhance as necessary, the capability to forward deploy dual-capable 
aircraft (DCA) around the world, including in Asia. Because DCA can be 
forward deployed to any region, they can provide a clear signal to 
potential adversaries that the United States possesses the forward-
deployed capabilities to respond promptly to potential escalation. 
Their tangible presence also contributes significantly to the assurance 
of allies and partners. As such, they make the U.S. nuclear deterrent 
more flexible and enable better tailoring of our strategy to possible 
regional adversaries.
    Both Japan and South Korea have expressed support for the 2018 
Nuclear Posture Review (NPR), and appreciation for the close 
consultations throughout the process.
    Mr. Rogers. Under Secretary Rood, are you satisfied with DOD's 
relationship with the National Nuclear Security Administration (which 
supplies and maintains U.S. nuclear warheads)? What works best in this 
relationship? What would you change? Is the forum for this 
relationship, the Nuclear Weapons Council, functioning as it should? 
How often do you speak to your counterparts in NNSA and the Department 
of Energy?
    Secretary Rood. The Department of Defense works closely with the 
Department of Energy's National Nuclear Security Administration (NNSA) 
to ensure that the U.S. nuclear stockpile and its supporting 
infrastructure provide the warheads our forces need to reliably deter 
strategic attacks against the United States, and our allies and 
partners. I look forward to working closely with Secretary Perry and 
NNSA Administrator, Ms. Gordon-Hagerty, on modernizing and 
recapitalizing all aspects of the U.S. nuclear deterrent and U.S. 
nuclear infrastructure to ensure a safe, secure, and effective 
deterrent that protects the homeland, assures allies and partners and 
above all, deters adversaries. I speak regularly to my counterparts at 
NNSA. We use the Nuclear Weapons Council as a key means to ensure the 
DOD and DOE/NNSA are coordinated in our approaches and this is an 
effective forum to discuss and resolve issues.
    Mr. Rogers. Under Secretary Rood, the Obama administration had a 
policy of not pursuing any new U.S. nuclear capabilities and reducing 
the role of U.S. nuclear weapons in our national security strategy. The 
2010 NPR claimed this would show leadership and discourage other 
nations from pursing their own new nuclear capabilities. Has this 
policy influenced the behavior of foreign nuclear powers, in particular 
of Russia? If our potential adversaries are not following our lead 
here, is it dangerous for us to continue down this road indefinitely if 
no other nation--except perhaps our closest ally in the U.K.--is doing 
the same? In your view, how likely is it that the U.S. nuclear 
deterrent can remain credible to 2050 or beyond if we never modify or 
improve its nuclear capabilities while other countries continue to 
advance?
    Secretary Rood. For decades, the United States led the world in 
efforts to reduce the roles and number of nuclear weapons. Although the 
United States has reduced its nuclear arsenal by more than eighty-five 
percent since its Cold War peak, others have not followed our example. 
Russia, China and North Korea are growing their stockpiles, increasing 
the prominence of nuclear weapons in their security strategies, and--in 
some cases--pursuing the development of new nuclear capabilities to 
threaten peaceful nations. In this environment, it is not possible to 
delay modernization of U.S. nuclear forces if we are to preserve a 
credible nuclear deterrent. This is a top priority of the Department of 
Defense.
    Mr. Rogers. Under Secretary Rood, does the U.S. currently have a 
``launch-on-warning'' or ``launch-on-alert'' posture in our nuclear 
forces? Or do we just retain the option to ``launch-under-attack?'' In 
what scenario do you envision the U.S. potentially ``launching-under-
attack?'' How does the U.S. verify it is under attack in such a 
scenario? Are you concerned the U.S. may mistakenly launch a nuclear 
strike, either in a day-to-day posture or during a crisis? Do you 
believe we should de-alert our ICBMs or other nuclear forces?
    Secretary Rood. The United States maintains a portion of its 
nuclear forces on alert day-to-day, and retains the option of launching 
those forces promptly. This posture maximizes decision time and 
preserves the range of U.S. response options. Forces on day-to-day 
alert are subject to multiple layers of control, ensuring clear 
civilian oversight and, when needed, Presidential decision-making. Over 
more than half a century, the United States has established a series of 
measures and protocols to ensure that intercontinental ballistic 
missiles on land and at sea are safe, secure, and under constant 
control. Any U.S. decision to employ nuclear weapons would follow a 
deliberative process.
    Mr. Rogers. Under Secretary Rood, do you support a U.S. policy of 
no-first-use of nuclear weapons? What do our allies think of the U.S. 
potentially adopting such a policy? Would such a policy increase the 
deterrence of adversaries and the assurance of allies?
    Secretary Rood. I do not support a policy of no-first use of 
nuclear weapons. The United States has never adopted a ``no-first-use'' 
policy and, given the contemporary threat environment, such a policy is 
not justified today. Such a policy would undermine both deterrence of 
adversaries and assurance of allies and partners.
    Mr. Rogers. Under Secretary Rood, President Putin announced last 
week that Russia was pursuing and fielding four new nuclear weapons 
because the U.S. refuses to engage in arms control and is developing 
missile defenses to thwart Russia's strategic forces. Are these 
reactions to the 2018 NPR or have they been in development for years/
decades? Does the U.S. plan to respond with additional new nuclear 
weapons of its own, or stick to the triad and dual-capable aircraft 
modernization program initiated by President Obama plus the two 
supplemental capabilities proposed by the NPR?
    Secretary Rood. President Putin's announcement, was not a reaction 
to the 2018 Nuclear Posture Review (NPR). The systems he referenced in 
his comments were in development for years before the NPR's 
publication. The NPR affirms the U.S. commitment to recapitalizing and 
modernizing the nuclear Triad and dual-capable aircraft, and announces 
the intent to modify existing submarine-launched ballistic missile 
warheads to provide a low-yield option and to pursue a modern nuclear-
armed sea-launched cruise missile. These decisions were not in response 
to the capabilities announced by President Putin but were made to 
ensure that the United States maintains a safe, secure and effective 
nuclear deterrent so we make certain nuclear weapons are never used.
    Mr. Rogers. Under Secretary Rood, what does the NPR recommend 
regarding our nuclear command, control, and communications (NC3) 
system? What actions is DOD considering or pursuing? How do you think 
DOD should be organized for NC3 issues? As NC3 recapitalization takes 
place, what are you doing to ensure the systems are secure from both 
cyber-attacks and supply chain insertions?
    Secretary Rood. The 2018 Nuclear Posture Review provides for the 
Chairman of the Joint Chiefs of Staff to deliver a plan no later than 
May 1, 2018 to reform NC3 governance to ensure its modernization and 
effective functioning against current and future environments. In 
addition to NC3 governance reform, the Administration will pursue a 
series of initiatives to strengthen NC3, including: 1) strengthening 
protection against space-based and cyber threats; 2) enhancing 
integrated tactical warning and attack assessment; 3) improving command 
post and communication links; 4) advancing decision-support technology; 
and 5) integrating planning and operations. Airborne NC3 capabilities 
are key to the overall survivability of the NC3 system; their 
modernization and sustainment are well-warranted.
    Mr. Rogers. When do you anticipate the Missile Defense Review will 
be completed?
    Secretary Rood. We will be completing the Missile Defense Review 
(MDR) in the near future; we need to ensure we get it right. The MDR 
will respond to the President's guidance to strengthen defenses for the 
homeland and protect our deployed forces and allies and partners from 
growing missile threats.
    Mr. Rogers. The Ballistic Missile Defense Review was a requirement 
in the FY17 NDAA, with a due date of January 31, 2018. We have yet to 
see this document, understanding that a significant re-write is taking 
place. When can we realistically expect to see this review, and can you 
give us a preview of what we will be getting?
    Secretary Rood. We will be completing the Missile Defense Review 
(MDR) in the near future; we need to ensure we get it right. The MDR 
will respond to the President's guidance to strengthen defenses for the 
homeland and protect our deployed forces and allies and partners from 
growing missile threats. The MDR will be responsive to the broader 
challenges the Administration has identified in the National Security 
Strategy and the National Defense Strategy. The review will also 
address a broader array of threats, including cruise and hypersonic 
missiles, thus the new title, Missile Defense Review.
    Mr. Rogers. Officials in the Department, and several combatant 
commanders, have expressed the need to develop next generation 
technologies in directed energy, space sensing, and boost phase 
intercept when addressing future ballistic missile threats. I agree 
with that statement wholeheartedly; however, that is not what is 
reflected in the PB19 budget submission, which arguably contains ``more 
of the same'' interceptor procurements, terrestrial sensors, and spiral 
development of our current systems. Further, it zeroes programs out 
like the Missile Defense Tracking System--a needed space-based sensor 
layer. From an overall strategic standpoint, can you explain this 
mismatch?
    Secretary Rood. I agree that we must invest in these advanced 
technologies to cope with increasingly sophisticated missile threats, 
but we also believe we should invest in near-term improvements to 
ensure protection against urgent missile threats from North Korea. The 
President's Budget 2019 does begin to address the issue of advanced 
technologies. We are funding the development of a demonstration project 
for space-based discrimination. The Missile Defense Agency is 
developing and demonstrating directed energy and laser technologies and 
is testing a range of potential concepts, including both tracking and 
defensive lasers that could be deployed on a variety of platforms. 
Simultaneously, we are developing several new radars that will improve 
our ability to discriminate among and address more complex missile 
threats, and we are developing an advanced warhead for the Ground-Based 
Interceptor (GBI)--called Multiple Objective Kill Vehicle (MOKV).
    Mr. Rogers. The NDS highlights a need to continue international 
collaboration for missile defense. How is OSD Policy adapting that 
guidance to increase both development cooperation and also making 
Foreign Military Sales of U. S. systems more enticing, affordable, and 
``easy'' for our allies and partners around the world?
    Secretary Rood. This Administration is integrating FMS with the 
larger set of security cooperation programs, and identifying process 
improvements that will enable additional defense exports.
    In particular, the Defense Security Cooperation Agency (DSCA) is 
currently pursuing initiatives under our National Defense Strategy to 
reform aspects of the FMS process and ensure DSCA is able to deliver 
effective, enduring, and timely partner capabilities that advance U.S. 
interests. Some of these may require legislation. Others have to do 
with changing our internal processes. We have already implemented 
several changes to the processes such as measures to use forecasted 
sales to inform both advanced technology transfer decisions and 
advanced negotiations of priced contract options for an anticipated 
weapon system, thus enabling a faster timeline to system delivery. We 
have also identified and implemented ways to leverage multi-country 
acquisitions with NATO more effectively.
    The Office of the Secretary of Defense (OSD) is working cross-
functionally as well as with its interagency partners to facilitate 
international collaboration in missile defense. OSD is supporting 
allies and partners bilaterally to ensure they are equipped with 
advanced capabilities to meet threats. This includes DOD efforts, in 
close coordination with interagency partners and in consultation with 
U.S. industry, as appropriate, to fulfill Poland's Integrated Air and 
Missile Defense (IAMD) requirement. This also includes supporting 
Germany in its development of a Ground Based Air Defense system. The 
United States continues SM-3 Block IIA guided missile co-development 
efforts with Japan. To aid Japan's potential acquisition of Aegis 
Ashore through FMS, the United States highlighted options that will 
improve delivery timelines. We are also actively pursuing FMS 
opportunities with the Gulf Cooperation Council (GCC) states, to 
include a completed sale of THAAD to the UAE and potential acquisition 
of THAAD by the Kingdom of Saudi Arabia.
    Mr. Rogers. STRATCOM has been providing foundational space 
situational awareness data to non-USG entities in accordance with 
10USC2274 since 2012. At a time when legitimate DOD space situational 
awareness requirements will be increasing, does it still make sense for 
STRATCOM to be providing this data to the public or is this better 
suited to a different Federal agency?
    General Hyten. USSTRATCOM will continue to provide basic space 
situational awareness data for the public. We must collect that data 
for our military requirements. As additional sources become available, 
the United States will have the opportunity to leverage civil, 
commercial, international and other data to refine this service.
    To facilitate enhanced data sharing, and recognizing the need for 
the DOD to focus on maintaining access to and freedom of action in 
space, I continue to support designating a civil agency to become the 
interface for the publicly-releasable portions of the DOD data catalog.
    Mr. Rogers. General Hyten, we've now had three consecutive 
Secretaries of Defense identify nuclear deterrence as the highest-
priority mission of the Department of Defense. Do you agree with this 
prioritization? Do you believe 6 or 7 percent of our defense budget is 
an appropriate level of spending for the nation's #1 priority defense 
mission? Do you believe this is affordable?
    General Hyten. Yes, the commitment to nuclear deterrence is not 
only affordable it is essential to our National Security--America can 
afford survival. Maintaining an effective nuclear deterrent is much 
less expensive than fighting a war that we are unable to deter. We can 
afford this level of investment against one of the few existential 
threats that we face.
    Mr. Rogers. General Hyten, do the supplemental capabilities 
proposed by the NPR lower the threshold for nuclear use? Are they about 
nuclear warfighting or about ensuring conflict is avoided altogether? 
Do you believe the addition of these capabilities to the U.S. nuclear 
arsenal increase or decrease the likelihood of a nuclear war?
    General Hyten. The NPR concluded deterrence requires a wider range 
of options than those provided by current forces to ensure the 
adversary understands the U.S. has the capability and will to respond.
    The supplemental capabilities are designed to raise the nuclear 
threshold by convincing adversaries even the limited use of nuclear 
weapons will be more costly than they can tolerate.
    Mr. Rogers. General Hyten, in your professional military judgment, 
do we need a low-yield SLBM when we already have a low-yield nuclear 
gravity bomb? Are these capabilities redundant? How do adversary air 
defenses factor into the recommendation for a low-yield SLBM?
    General Hyten. Russian strategy, doctrine, and capabilities call 
for the limited use of nuclear weapons to coerce NATO, and to defeat 
NATO conventional forces. They would not have adopted this strategy and 
doctrine, and would not be expending resources to modernize and expand 
their non-strategic nuclear forces (which are already approximately ten 
times larger than NATO's), if they perceived current U.S. and NATO 
nuclear posture as sufficient to deter such nuclear use.
    The 2018 Nuclear Posture Review took a deliberate threat-policy-
posture approach to examine the strategic environment. The NPR 
determined that our deterrent approach must be tailored and flexible to 
address today's challenges and future uncertainty.
    Low yield weapons are a critical piece of our force structure and 
defense posture but are currently limited to our bomber force--a low 
yield ballistic missile (LYBM) weapon and sea-launched cruise missile 
(SLCM) provide unique attributes to enhance existing capabilities:
    <bullet>  LYBM: survivable, prompt, can strike targets that are 
heavily defended against bombers and air-delivered weapons.
    <bullet>  SLCM: assured response capability, forward-deployable, 
non-host nation dependent, and provides additional diversity in 
delivery platforms, range, survivability, and future hedging.
    Reintroducing a low-yield option for our sea leg addresses 
adversary perception of advantage, improves our nuclear deterrent, 
allows the U.S. to negotiate from a position of strength, and bring an 
enhanced assurance element to our allies.
    Mr. Rogers. General Hyten, please discuss the requirement for the 
LRSO cruise missile. Some are saying we don't need the LRSO if we 
already have a penetrating bomber, such as the B-2 or B-21, armed with 
nuclear gravity bombs. But the new Nuclear Posture Review states very 
clearly that we need both LRSO and the B-21 bomber. How do capabilities 
like LRSO, our bombers, and the nuclear-armed sea-launched cruise 
missiles contribute to assurance and deterrence in Asia? Do they 
reassure allies like Japan and South Korea while deterring potential 
adversaries like China and North Korea? Do you believe LRSO is de-
stabilizing? Don't we and the Russians already have dual-capable cruise 
missiles? Please discuss aging and maintenance in our current air-
launched cruise missiles. What happens to these missiles and this 
capability if LRSO is not fielded on time? What is the risk to a 
credible nuclear deterrent?
    General Hyten. The B-21 and LRSO are required to ensure the 
continued effectiveness of the air leg of the Triad. The bombers, 
delivering both gravity bombs and the LRSO, ensure maximum operational 
flexibility against a wide variety of targets anywhere in the world and 
provide a visible and recallable response option intended to deter 
adversaries and assure allies. The SLCM demonstrates our commitment to 
allies by providing additional in-theater options to respond to 
regional instability.
    I do not view cruise missiles as destabilizing. Cruise missiles 
have been fielded on bombers and other platforms (e.g., sea-launched) 
since the late 1960s. Moreover, Russia has air launched cruise 
missiles, which implies that they do not view them as destabilizing.
    LRSO is a just-in-time replacement for the AGM-86B Air Launched 
Cruise Missile (ALCM). The ALCM, fielded in the 1980s and decades 
beyond its planned lifetime, is increasingly difficult to sustain and 
its ability to survive modern air defenses is eroding.
    Mr. Rogers. General Hyten, is the U.S. in a nuclear arms race with 
Russia? Please describe Russia's nuclear forces modernization program, 
comparing and contrasting it to ours. When did Russia embark on its 
nuclear modernization program and when was ours initiated? When will 
Russia have largely completed its nuclear modernization program? When 
will ours largely be completed?
    General Hyten. The systems President Putin mentioned in his recent 
speech do not change the military balance, nor do they necessitate a 
change in our deterrence posture. However, my job is to ensure we can 
effectively deter and respond to any threats our country faces. The 
U.S. nuclear modernization program is not increasing the numbers of our 
strategic nuclear weapons, rather we are replacing systems that are 
decades past their original design life. Modernization is necessary to 
preserve our deterrent and hedge against prospective risks.
    Russia initiated nuclear modernization in 2009, and is estimated to 
be 80% complete by 2020 and 100% complete by 2025. The U.S. by 
comparison has just initiated modernization and will not complete 
modernization until 2040.
    Mr. Rogers. General Hyten, the previous administration had a policy 
of not pursuing any new U.S. nuclear capabilities and reducing the role 
of U.S. nuclear weapons in our national security strategy. The 2010 NPR 
claimed this would show leadership and discourage other nations from 
pursing their own new nuclear capabilities. Has this policy influenced 
the behavior of foreign nuclear powers, in particular of Russia? If our 
potential adversaries are not following our lead here, is it dangerous 
for us to continue down this road indefinitely if no other nation--
except perhaps our closest ally in the U.K.--is doing the same? In your 
view, how likely is it that the U.S. nuclear deterrent can remain 
credible to 2050 or beyond if we never modify or improve its nuclear 
capabilities while other countries continue to advance?
    General Hyten. No, Russia, China and North Korea did not follow our 
lead.
    I remain confident in our existing nuclear deterrent force; however 
our legacy capabilities are serving well beyond their intended design 
lives and are rapidly approaching end of life. The NPR recognized 
maintaining a safe, secure and reliable nuclear deterrent is predicated 
on modernizing the TRIAD, nuclear command, control and communications 
(NC3), dual capable aircraft (DCA), stockpile and infrastructure.
    The President's Budget addresses the Department's nuclear 
modernization requirements and with continued congressional support, I 
am confident we will continue to have a credible deterrent for the 
foreseeable future.
    Mr. Rogers. General Hyten, would putting a single, lower-yield 
warhead on a D5 submarine-launched missile increase the vulnerability 
of the submarine beyond the risks it already entails in current war 
plans? Do current war plans include options for single-missile launches 
from submarines?
    General Hyten. No, the introduction of a low yield SLBM warhead 
will not change the operating patterns of SSBNs. Our nuclear forces are 
postured to decisively respond to a range of contingencies spanning 
various levels of conflict.
    Further, our SSBNs are designed and operated in such a manner as to 
minimize opportunities for adversaries to attack them, and launching 
one or more SLBMs will not introduce additional risk to SSBN 
survivability.
    Mr. Rogers. General Hyten, does the U.S. currently have a ``launch-
on-warning'' or ``launch-on-alert'' posture in our nuclear forces? Or 
do we retain the option to ``launch-under-attack?'' In what scenario do 
you envision the U.S. potentially ``launching-under-attack?'' How does 
the U.S. verify it is under attack in such a scenario? Why did the 
Obama administration conclude to retain the option to ``launch-under-
attack?'' Are you concerned the U.S. may mistakenly launch a nuclear 
strike, either in a day-to-day posture or during a crisis? Do you 
believe we should de-alert our ICBMs or other nuclear forces?
    General Hyten. It remains the policy of the U.S. to retain some 
ambiguity regarding the precise circumstance that might lead to a U.S. 
nuclear response. Further, our forces are postured in such a way that 
no adversary could conceivably be confident they could achieve their 
objectives in a large scale attack.
    The U.S. retains a robust attack warning and assessment capability, 
and deliberative conferencing procedures to determine the validity and 
scope of a potential attack, convey information to the President, 
discuss potential responses and, when directed, execute the President's 
orders.
    The Obama administration in the 2010 NPR and the Trump 
administration in the 2018 NPR assessed the threat environment and 
determined the capacity to respond at any time and in any scenario 
enhances our deterrent. Our forces are postured appropriately to 
address the threat.
    Mr. Rogers. General Hyten, are you concerned that an adversary may 
not know whether a single D5 missile launched at it is carrying a 
single warhead or multiple warheads?
    General Hyten. No, but this is not a new dilemma. An adversary 
would understand the scale of the attack--regardless of the number of 
Reentry Vehicles--is limited and does not represent an existential 
threat.
    Mr. Rogers. General Hyten, is the nuclear declaratory policy in the 
2018 NPR in any significant way different from the Obama 
administration's declaratory policy?
    General Hyten. No, the 2018 NPR does not expand the circumstances 
in which the U.S. might consider using nuclear weapons.
    The 2018 NPR declaratory policy states ``the United States would 
only consider the employment of nuclear weapons in extreme 
circumstances in defense of the vital interests of the United States, 
its allies, and partners.'' The 2010 NPR contained the same language.
    The 2018 NPR further clarifies `extreme circumstances' by providing 
examples that might elicit U.S. consideration of a nuclear response. 
Clarification reduces the potential for adversary miscalculation which 
enhances deterrence.
    Mr. Rogers. General Hyten, do you believe the U.S. deploying a low-
yield SLBM warhead is simply mirror-imaging the Russian ``escalate-to-
deescalate'' or ``escalate-to-win'' strategy? Is this low-yield U.S. 
weapon about fighting and winning a nuclear war or about deterring a 
nuclear war in the first place?
    General Hyten. The NPR concluded that U.S. nuclear forces require 
supplemental capabilities to provide a credible response to adversary 
limited first use of nuclear weapons in order to deter such use.
    The supplemental capabilities are designed to raise the nuclear 
threshold by convincing adversaries even the limited use of nuclear 
weapons will be more costly than they can tolerate.
    Mr. Rogers. General Hyten, do you support a U.S. policy of no-
first-use of nuclear weapons? Why did the Obama administration 
ultimately conclude in 2016 to not pursue such a policy?
    General Hyten. No, I do not support a ``no-first-use'' policy.
    The Obama Administration in the 2010 NPR and the Trump 
Administration in the 2018 NPR concluded elimination of the ``first-
use'' policy would unnecessarily constrain options available to the 
President, particularly in times of extremis.
    First use policy also acts as a deterrent to conventional 
escalation/coercion, assures allies, and is a key element of our 
extended deterrence policy.
    Mr. Rogers. General Hyten, do you support efforts to go faster on 
major nuclear modernization programs? What could be done to go faster 
on the GBSD and LRSO programs?
    General Hyten. Yes, I strongly support service efforts to 
accelerate modernization. Legacy weapon systems are well past their 
planned service life and have eroding margin.
    The Air Force is executing GBSD and LRSO on schedule and the best 
way to sustain this momentum is to: 1) pass budgets on-time; 2) keep 
program requirements stable from Milestone-B through deployment; and 3) 
pursue mature, low-risk technologies capable of adapting to future 
changes. I also support initiatives to streamline acquisition and test, 
and minimize burdensome oversight.
    Mr. Rogers. General Hyten, what types of ``non-strategic'' nuclear 
weapons does Russia have? How many non-strategic nuclear weapons does 
Russia have? How many types and how many numbers of non-strategic 
nuclear weapons does the U.S. have? What steps does the NPR recommend 
regarding non-strategic nuclear weapons?
    General Hyten. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. General Hyten, please describe the military 
requirements that are driving U.S. nuclear modernization plans. What do 
we see other countries doing and how does that impact our requirements? 
How does aging or vulnerabilities in our own U.S. nuclear forces impact 
requirements and modernization plans?
    General Hyten. Nuclear weapons have and will continue to play a 
critical role in deterring nuclear attack and preventing large-scale 
conventional warfare between nuclear armed states for the foreseeable 
future. The military requirements driving U.S. nuclear modernization 
plans are based on a pragmatic assessment of the threats we face and 
the uncertainties regarding the future global security environment.
    U.S. nuclear forces must be survivable, forward deployable, 
responsive, visible, penetrating and accurate.
    Our legacy nuclear weapon systems are operating well past their 
designed service life and have eroding margin, while adversaries are 
modernizing their nuclear forces, strategic systems, and conventional 
capabilities to achieve their national security objectives in today's 
complex and demanding global security environment.
    Mr. Rogers. General Hyten, what is the military requirement for a 
low-yield submarine-launched ballistic missile (SLBM) warhead and a 
sea-launched cruise missile (SLCM)? Isn't it correct that the low-yield 
SLBM warhead is a simple modification to an existing weapon? Not a new 
weapon? And isn't it correct that the U.S. deployed SLCMs for several 
decades--before giving them up in 2010. Wouldn't this be updating and 
redeploying a capability we used to have?
    General Hyten. The military requirement for a low-yield SLBM 
warhead and a SLCM is in direct response to the threat. Russian 
strategy, doctrine, and capabilities call for the limited use of 
nuclear weapons to coerce NATO, and to defeat NATO conventional forces 
through the wider use of nuclear weapons if their coercive use fails.
    Modification of the SLBM warhead and reintroduction of the SLCM 
will strengthen deterrence by convincing adversaries the U.S. has 
credible and effective options at any level of escalation, and they 
cannot escalate their way out of a failing conflict through the use of 
nuclear weapons.
    The nuclear armed sea-launched cruise missile is a capability the 
U.S. deployed for a number of years and is not a new capability. The 
Department is in the process of determining the technical approach to 
pursue this capability.
    Mr. Rogers. General Hyten, why does the NPR recommend retaining the 
B83 nuclear gravity bomb? Does STRATCOM have targets that only the B83 
nuclear gravity bomb can hold at risk?
    General Hyten. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. General Hyten, what does the NPR recommend regarding 
our nuclear command, control, and communications (NC3) system? What 
actions is DOD considering or pursuing? How do you think DOD should be 
organized for NC3 issues? As NC3 recapitalization takes place, what are 
you doing to ensure the systems are secure from both cyber attacks and 
supply chain insertions?
    General Hyten. What does the NPR recommend regarding our NC3 
system?
    NC3 system must assure integrity of transmitted information and be 
resilient and survivable to overcome effects of adversary nuclear 
attack. NC3 must be increasingly flexible to tailor deterrence 
strategies across a range of potential adversaries and threats, and 
enable adjustments over time. We must sustain and replace nuclear 
capabilities, modernize NC3, and strengthen the integration of nuclear 
and non-nuclear military planning.
    What actions is DOD considering or pursuing?
    Space assets that are agile and resilient against 21st century 
threats; enhanced threat warning systems that keep pace with modern 
threats. Communications links between command centers and Triad forces 
that are assured, resilient, and reliable at all levels of conflict. 
Protection of NC3 components against current and future cyber threats. 
Advanced Decision Support for senior leadership to enable more informed 
response to any event in most timely manner. Planning systems capable 
of providing integrated options across the full spectrum of effects 
(e.g. conventional/nuclear).
    How do you think DOD should be organized for NC3 issues?
    As noted in the 2018 NPR, DOD authority and responsibility for 
governance of the NC3 system is broadly diffused and must be 
integrated. To get at this problem, the Chairman was tasked through the 
NPR to provide Secretary Mattis a recommended plan to reform NC3 
governance. I'll have to defer further comment until after the SECDEF 
makes his determination.
    As NC3 recapitalization takes place, what are you doing to ensure 
the systems are secure from both cyberattacks and supply chain 
insertions?
    While efforts are ongoing at the Joint Staff level to modify 
existing practices of contract enforcement and/or oversight, I have 
directed Cyber Protection Teams to continue to conduct Defensive Cyber 
Operations on our most critical NC3 systems. Additionally, USSTRATCOM 
is working with the interagency and partnering with OUSD(I), to: 1) 
incorporate rigorous supply chain security measures throughout the 
lifecycle of our most sensitive systems and 2) guide Intelligence 
Community and law enforcement efforts to quickly detect and respond to 
supply chain threats.
    Mr. Rogers. Officials in the Department, and several combatant 
commanders, have expressed the need to develop next generation 
technologies in directed energy, space sensing, and boost phase 
intercept when addressing future ballistic missile threats. I agree 
with that statement wholeheartedly; however, that is not what is 
reflected in the PB19 budget submission, which arguably contains ``more 
of the same'' interceptor procurements, terrestrial sensors, and spiral 
development of our current systems. Further, it zeroes programs out 
like the Missile Defense Tracking System--a needed space-based sensor 
layer. From an overall strategic standpoint, can you explain this 
mismatch?
    General Hyten. I agree there is a need to develop next generation 
technologies in directed energy, space sensing, and boost phase 
intercept. It is important to note, the PB funds both existing 
capabilities as a near-term hedge and begins development of next 
generation upgrades and capability advancements to strengthen our 
missile defense posture.
    I concur MTS is a needed space-based sensor capability and although 
the PB does not fund MDA to pursue this program directly, the PB does 
fund the AF, in close cooperation with MDA, to develop a missile 
warning sensor demo to inform the future next generation MTS/OPIR 
programs.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SMITH
    Mr. Smith. What was the reason to reverse the decision to retire 
the B83 bomb, and instead keep it in the U.S. arsenal? Is there a 
change in military requirements that requires keeping these nuclear 
weapons?
    Secretary Rood. The 2018 Nuclear Posture Review reiterates the 
prior Administration's commitment to retain the B83-1 in the stockpile 
until there is sufficient confidence in the B61-12 gravity bomb. Given 
the changed threat environment, deterrence requirements to hold a 
variety of protected targets at risk, and the unique capabilities of 
the B83-1 bomb to fulfill those requirements, the Administration 
decided to postpone B83-1 retirement until a suitable replacement is 
validated.
    Mr. Smith. Why are additional low-yield capabilities on sea-based 
platforms (low-yield D5 on SSBNs and a new sea-launched cruise missile) 
needed, when the United States already has low-yield options on its 
air-launched platforms, with the B61 bomb and the air-launched nuclear 
cruise missile (both of which are being modernized)?
    Secretary Rood. These supplements to the planned nuclear force 
replacement program are prudent options for enhancing the flexibility 
and diversity of U.S. nuclear capabilities to help address emerging 
deterrence requirements in the near term and beyond. Together, they 
will: provide a more diverse set of capabilities enhancing our ability 
to tailor deterrence and assurance; expand the range of credible U.S. 
options for responding to nuclear or non-nuclear strategic attack; and 
enhance deterrence by signaling to potential adversaries that their 
concepts of coercive, limited nuclear escalation offer no exploitable 
advantage.
    Mr. Smith. Has the United States ever used low-yield warheads on 
SSBNs? How might using low-yield nuclear warheads on SSBNs, which seems 
to have never have been done in the decades of U.S. nuclear deterrence, 
change when SSBNs might be used in a nuclear conflict? Are they likely 
to be used early in a conflict to respond to an attempt by Russia to 
use a low-yield nuclear weapon in a regional, conventional conflict 
where they might attempt to ``escalate-to-deescalate''? And would the 
purpose be to target Russian territory with a low-yield nuclear weapon?
    Secretary Rood. The United States has never deployed a low-yield 
submarine-launched ballistic missile (SLBM) warhead. A low-yield 
warhead was used in the Tomahawk sea-launched cruise missile before the 
system was retired from the U.S. nuclear inventory. The low-yield 
capabilities announced in the Nuclear Posture Review (NPR) are intended 
to enhance the credibility of our deterrent against limited nuclear 
first-use by an adversary at any stage of a conflict. They will improve 
our deterrence posture by dispelling any perception among nuclear-armed 
adversaries, especially Russia, of an exploitable ``gap'' in our 
ability to respond to their limited nuclear weapon use strategies 
(e.g., ``escalate to deescalate'').
    Mr. Smith. Has the United States ever used low-yield warheads on 
SSBNs? How might using low-yield nuclear warheads on SSBNs, which seems 
to have never have been done in the decades of U.S. nuclear deterrence, 
change when SSBNs might be used in a nuclear conflict? Are they likely 
to be used early in a conflict to respond to an attempt by Russia to 
use a low-yield nuclear weapon in a regional, conventional conflict 
where they might attempt to ``escalate-to-deescalate?'' And would the 
purpose be to target Russian territory with a low-yield nuclear weapon?
    General Hyten. Low-yield warheads have never been deployed on a 
SSBN. Los Angeles-class SSNs employed the TLAM-N with a low yield 
nuclear option from 1984-2010.
    Introduction of a low-yield SLBM warhead is intended to enhance 
deterrence, raise the nuclear threshold, and prevent escalation of the 
conflict by providing a flexible, credible capability to tailor U.S. 
deterrence across a spectrum of adversaries, threats, and contexts.
    The targets and weapons used to achieve U.S. objectives are highly 
dependent upon the context of the conflict.
    Mr. Smith. What was the reason to reverse the decision to retire 
the B83 bomb, and instead keep it in the U.S. arsenal? Is there a 
change in military requirements that requires keeping these nuclear 
weapons?
    General Hyten. [The information is classified and retained in the 
committee files.]
    Mr. Smith. Why are additional low-yield capabilities on sea-based 
platforms (low-yield D5 on SSBNs and a new sea-launched cruise missile) 
needed, when the United States already has low-yield options on its 
air-launched platforms, with the B61 bomb and the air-launched nuclear 
cruise missile (both of which are being modernized)?
    General Hyten. Russian strategy, doctrine, and capabilities call 
for the limited use of nuclear weapons to coerce NATO, and to defeat 
NATO conventional forces. They would not have adopted this strategy and 
doctrine, and would not be expending resources to modernize and expand 
their non-strategic nuclear forces (which are already approximately ten 
times larger than NATO's), if they perceived current U.S. and NATO 
nuclear posture as sufficient to deter such nuclear use.
    The 2018 Nuclear Posture Review took a deliberate threat-policy-
posture approach to examine the strategic environment. The NPR 
determined that our deterrent approach must be tailored and flexible to 
address today's challenges and future uncertainty.
    Low yield weapons are a critical piece of our force structure and 
defense posture but are currently limited to our bomber force--a low 
yield ballistic missile (LYBM) weapon and sea-launched cruise missile 
(SLCM) provide unique attributes to enhance existing capabilities:
    LYBM: survivable, prompt, can strike targets that are heavily 
defended against bombers and air-delivered weapons.
    SLCM: assured response capability, forward-deployable, non-host 
nation dependent, and provides additional diversity in delivery 
platforms, range, survivability, and future hedging.
    Reintroducing a low-yield option for our sea leg addresses 
adversary perception of advantage, improves our nuclear deterrent, 
allows the U.S. to negotiate from a position of strength, and bring an 
enhanced assurance element to our allies.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. DAVIS
    Mrs. Davis. The Russian doctrine of ``escalate to deescalate'' by 
using low-yield nuclear weapons is dangerous and reckless. We shouldn't 
mirror their reckless strategy. So what do we hope to gain by 
proliferating low-yield weapons? What is the strategic gain of their 
employment?
    General Hyten. The supplemental low-yield capabilities directed in 
the NPR--low-yield ballistic missiles (LYBM) and a sea-launched cruise 
missile (SLCM)--are a measured response to the threat and are intended 
to deter Russia from acting on their `escalate to deescalate' strategy. 
If Russia believes they can successfully use a low-yield nuclear weapon 
to end a conventional conflict and achieve their objectives, we risk 
deterrence failure.
    The supplemental capabilities are intended to deny potential 
adversaries any mistaken confidence that limited nuclear employment 
would provide an advantage restoring the nuclear threshold and 
increasing the likelihood of conflict is avoided altogether.
    Mrs. Davis. Cost estimates for nuclear modernization range from 
$700B to $1.5T. Leveraging diplomatic instruments of power in these 
times is crucial. Russia has a weak economy; they don't want to spend 
the money on nuclear modernization if they don't have to. As the only 
peer nuclear competitor, shouldn't we be looking for ways to shore up 
current treaties to engage Russia in further bilateral reductions of 
nuclear weapons?
    General Hyten. While the United States has continued to reduce the 
number and salience of its nuclear weapons, Russia has expanded and 
improved its strategic and non-strategic nuclear forces.
    The NPR makes clear the United States sees negotiated arms control 
agreements as a valuable tool to reduce the threats potential 
adversaries pose to the U.S. and its allies and partners, to increase 
transparency and predictability and reduce the likelihood of 
misperception and miscalculation, and to prevent unnecessary 
competition in nuclear arms.
    However, for arms control agreements to serve these purposes 
effectively we must have a willing partner that complies with the 
commitments they make in such agreements. This is why a satisfactory 
resolution of Russia's ongoing violation of the INF Treaty is so 
important. Without a verifiable return of Russia to compliance with the 
INF Treaty our ability to use arms control as a means of enhancing U.S. 
and allied security is profoundly undermined.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BROOKS
    Mr. Brooks. STRATCOM has stated a need for a Prompt Global Strike 
weapon, either land- or sea-launched. From our understanding, the Joint 
Staff has not completed validation of this requirement, despite ongoing 
development efforts and plans for the Navy to assume the program in 
2019. Do you know why the delay in Joint Staff validation? How is this 
delay impacting delivery of a capability to fulfill your requirement?
    General Hyten. The Joint Requirements Oversight Council (JROC) 
revalidated system requirements and capability needs for a Conventional 
Prompt Strike (CPS) system in 2016. The JROC supported prioritizing 
deployment of a sea-based prompt strike capability in the near-term and 
supported further efforts on additional basing modes. The Department 
took a significant step forward this cycle towards realizing an 
operational capability by transferring the program to the Navy in 2020 
and adding significant resources beginning in FY19. These actions place 
us on a clear transition path from experimentation to a fielded 
capability.
    Mr. Brooks. In your opening remarks you stated that the Department 
is pursuing several lines of effort with hypersonic capabilities, and 
that we need to prioritize and accelerate development. I assume the 
several lines of effort you mention are the AT&L (now A&S)/Navy program 
and the Air Force/DARPA efforts. With the requirement from STRATCOM 
driving the A&S/Navy development, how do you see the air-launched Air 
Force efforts competing with what you have stated is the need?
    General Hyten. We continue working closely with other Combatant 
Commands and Services to ensure warfighter requirements for this 
capability are addressed. The Air Force and DARPA development of air-
launched hypersonic strike capabilities are complimentary to A&S and 
Navy Conventional Prompt Strike program. The diversity of ranges, 
survivability, lethality, and delivery options will provide operational 
commanders flexibility in all phases of conflict.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. What is your advice to the President on whether to 
extend New START Treaty? Is the New START Treaty still in U.S. security 
interests? What would the risk to national security and strategic 
stability be if the treaty were not extended or updated?
    General Hyten. The New START Treaty has, and continues to be, an 
essential transparency and confidence building measure in maintaining 
U.S.-Russia strategic stability.
    The verification regime (i.e., on-site inspections, database 
exchanges, notifications and so on) permits visibility into Russian 
strategic offensive capabilities which significantly contribute to our 
understanding of their force structure and pace of modernization.
    It also allows us to demonstrate to the Russians that we are 
compliant, stable and capable. That said, I would advise further 
dialogue and analysis is prudent on any matters pertaining to extending 
the Treaty.
    Mr. Larsen. Would the use of a low-yield nuclear weapon from a 
submarine risk increasing ambiguity? Could an adversary differentiate 
between a sub-launched missile carrying a single, low-yield nuclear 
weapon or whether it carried many high-yield nuclear warheads, or 
whether it carried a conventional hypersonic weapon? Is this an 
acceptable risk?
    General Hyten. Adversaries cannot determine the yield or number of 
warheads mated on a launch vehicle. Employment of a low yield SLBM does 
not change the equation and/or increase ambiguity.
    An adversary would understand the scale of the attack--single 
missile vs multiple launches--and the fact the attack does not 
represent an existential threat.
    Especially during a crisis or conflict, U.S. and Russian decision-
makers take the entire threat environment into account--not simply one 
action. Just as there is no automaticity to respond to limited Russian 
nuclear employment with a massive response, we should not expect Russia 
to do so either.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. Last year's conference report for NDAA FY18 terminated 
the position and office of the Principal Department of Defense Space 
Advisor and transferred the duties, responsibilities and personnel to a 
single official selected by the Deputy Secretary of Defense. How does 
that impact the Department and how does that affect our readiness in 
the space warfighting domain?
    Secretary Rood. Pursuant to Section 1601 of the National Defense 
Authorization Act for Fiscal Year 2018 (NDAA for FY 2018) (Public Law 
115-91), the position and the office of the Principal DOD Space Advisor 
(PDSA) were terminated. The Deputy Secretary of Defense realigned the 
duties, responsibilities, personnel, and resources of the PDSA directly 
under the purview of the Deputy Secretary of Defense as an interim 
measure as he leads the Department in a comprehensive review of options 
for space organization and management. The Deputy Secretary carried out 
this Congressional direction through a January 18, 2018 memorandum, 
``Guidance for Increasing Lethality and Warfighting Readiness in 
Space,'' which ``ensures continuity of responsibilities and authorities 
throughout the DOD space enterprise while this review is conducted.'' 
This guidance also reflects the National Defense Strategy's emphasis in 
its first line of effort to rebuild military readiness as we build a 
more lethal Joint Force. As a result, DOD is implementing the 
Congressional direction pursuant to Section 1601 in a manner that 
strengthens warfighting readiness and lethality in the space domain.
    Mr. Turner. Earlier this year you reorganized your Joint Functional 
Component Command for Space into a Joint Force Space Component Command 
and dual-hatted that organization with Air Force Space Command. Can you 
explain why you did that, what effect you were trying to achieve? What 
benefit were you trying to derive by dual-hatting the Air Forces' 
organize, train, and equip major command with the joint responsibility 
for commanding and operating space units?
    General Hyten. This change was part of a broader command 
organizational restructure intended to build a coherent and streamlined 
warfighting construct, consistent with doctrine, to enable more 
effective command and control of forces and direct lines of authority.
    This shift to a dual-hatted joint and service commander elevates 
and emphasizes the role of space in the joint warfighting environment 
and improves both unity of command and effort for joint space 
operations.
    Mr. Turner. You have been a vocal advocate for moving faster in 
space acquisition. And I agree with that sentiment completely, but 
where do you think the biggest problem is for space acquisition? How 
would you redesign the space acquisition process?
    General Hyten. One impediment to moving faster in space acquisition 
has been our inability to innovate, prototype and field new space 
capabilities on the timeline of need. We need to stop excessive risk 
reduction activities where we spend years designing and analyzing 
exquisite systems rather than pushing to get the right capability on 
orbit for the warfighter. I see that changing now in both the AF and 
the DOD. Secretary Wilson, General Goldfein, Dr. Roper, Deputy 
Secretary Shanahan, Undersecretary Lord, and Undersecretary Griffin are 
pushing in just this direction.
    I also support a process to more easily replace capabilities in a 
conflict by fielding smaller and cheaper satellites that can quickly 
integrate with a modular payload bus and inexpensive ground 
architecture.
    To replace capabilities based on warfighter need, we also need to 
adopt more commercial space procurement practices to push satellite 
development down to 3 to 5 years and continue to leverage the 
increasingly affordable launch market.
    Eliminating excess bureaucracy is also critical to accelerating 
acquisition to the speed of relevance, and I believe we have the right 
leadership in the Department to make strides in this area.
    Mr. Turner. Last year's conference report for NDAA FY18 terminated 
the position and office of the Principal Department of Defense Space 
Advisor and transferred the duties, responsibilities and personnel to a 
single official selected by the Deputy Secretary of Defense. How does 
that impact the Department and how does that affect our readiness in 
the space warfighting domain?
    General Hyten. I agree with the NDAA's decision to eliminate the 
PDSA.
    The Deputy Secretary of Defense has not made a decision on where 
the duties, responsibilities and personnel will transfer. As such, it 
would be premature for me to comment on effectiveness.
    Mr. Turner. We see an array of new threats that are driving 
improved missile warning; many of those involve surveillance over the 
North Pole. How would you characterize polar coverage priorities for 
Next Gen Missile Warning, and how can our country get more resilient 
capabilities operational quickly? Should we start with one part of the 
constellation, the other, or both, based on your assessment of the 
threats?
    General Hyten. To be clear, our missile warning constellation does 
provide global coverage (including the North Pole) and is effective 
against existing ballistic missile threats.
    As threats evolve, we must ensure our missile warning capabilities 
outpace our adversaries through innovation and fielding at the speed of 
relevance.
    I am encouraged with the direction of the President's Budget (PB). 
The PB accelerates development of a more resilient, global missile 
warning architecture and begins development of capabilities required to 
address advanced adversary threats.
    Mr. Turner. Recently we have received the DSD's Space Organization 
Interim Report which highlights acquisition as a major focus in order 
for us to move at the speed of relevance with incorporating innovation 
into the space acquisition process. How important or helpful do you 
think the final report will be for space acquisition redesign?
    General Hyten. I believe the framework laid out in the interim 
report moves us in the right direction. I'm optimistic the changes the 
Deputy Secretary of Defense recommends will be the basis for the 
modifications necessary to move at the speed of relevance.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. The current plan to modernize and recapitalize the 
nuclear deterrent and its supporting infrastructure requires a great 
deal of concurrent work and spending in the 2020s and into the 2030s. 
In fact, outgoing NNSA Administrator Gen. Klotz stated last month that 
``We've never done more than one life extension program at a time, 
since the end of the Cold War. We're now doing essentially four . . . 
We're pretty much at capacity in terms of people.'' How is DOD planning 
for the high concurrency in modernization programs, and now having to 
add two more capabilities (a low-yield D5 and a new nuclear sea-
launched cruise missile)? What risks are there in this plan?
    General Hyten. I agree with Administrator Gordon-Hagerty's 
assessment in recent testimony to the House Armed Services Strategic 
Forces Subcommittee. The nuclear weapons enterprise is prepared and has 
the capabilities and capacity to execute planned programs including the 
added requirements from the 2018 Nuclear Posture Review.
    We will work through the Nuclear Weapons Council to synchronize DOD 
acquisition programs with NNSA stockpile activities. Risks include the 
need for continued support from Congress for predictable and stable 
program funding and recruiting, training, and equipping the personnel 
in the workforce to execute the programs.
    Mr. Garamendi. Does DOD have a comprehensive nuclear modernization 
plan (to complement NNSA's Stockpile Stewardship and Modernization 
Plan) identifying major programs and capability sustainment and 
modernization requirements?
    General Hyten. Yes, section 1043 of the FY12 NDAA requires an 
annual report to Congress on all Service sustainment/modernization 
plans with ten-year cost projection. Additionally, Service 
modernization plans are included in the Nuclear Weapons Council (NWC) 
long-range Strategic Plan. The NWC plan aligns DOD platform programs 
and DOE NNSA stockpile and infrastructure programs to ensure 
capabilities are concurrently developed to meet deterrence 
requirements.
    Mr. Garamendi. We have never used SSBNs for a single low-yield 
nuclear warhead. SSBNs are our survivable second strike capability to 
deter a massive nuclear exchange. Are we changing the mission or use of 
this platform? Would using a D5 to launch a low-yield nuclear weapons 
risk undermining strategic requirements? Specifically, is there any 
increased risk that a submarine, having launched a single low-yield 
missile, would be vulnerable to attack? Could DOD meet strategic 
requirements if the sub cannot escape safely after such a launch?
    General Hyten. No, the introduction of a low yield SLBM will not 
change the operating patterns of SSBNs. Our nuclear forces are postured 
to decisively respond to a range of contingencies spanning various 
levels of conflict. Further, our SSBNs are designed and operated in 
such a manner as to minimize opportunities for adversaries to conduct 
prosecution. Employment of a low-yield weapon will not introduce 
additional risk to SSBN survivability.
    The Triad provides the inherent flexibility required to mitigate 
the loss of any single platform.
    Mr. Garamendi. Given Putin's statements this week about Russia's 
nuclear weapons capability, do you see a risk of a nuclear arms race 
with Russia? How can this risk be mitigated?
    General Hyten. The systems President Putin mentioned in his recent 
speech do not change the military balance, nor do they necessitate a 
change in our deterrence posture. With that said, as the Commander of 
USSTRATCOM, it is my responsibility to ensure this country can deter 
and respond to any threat. The recommendations made in the NPR to 
modernize our TRIAD and incorporate select low-yield supplements are 
needed to maintain and enhance the flexibility, diversity and 
responsiveness of U.S. nuclear forces now and in the future.
    I completely agree with former Secretary of Defense Carter's 
statement, ``. . . During the past 25 years, the United States has made 
no major new investments in its nuclear forces, yet other countries 
have conducted vigorous buildups. This history does not support the 
contention that U.S. investments fuel the nuclear programs of others. . 
.'' (Spring 2018 Newsletter, Harvard School of Government's Belfer 
Center).
    Mr. Garamendi. Why do you recommend pursuing new low-yield nuclear 
weapon options? The U.S. arsenal already deploys low-yield options with 
the B61 (which we are spending $12 billion to modernize) and the 
planned LRSO. Why do we need other options, including redeploying a new 
sea-launched nuclear cruise missile and fielding a low-yield option for 
the submarine-launched D5 missile?
    General Hyten. Russian strategy, doctrine, and capabilities call 
for the limited use of nuclear weapons to coerce NATO, and to defeat 
NATO conventional forces. They would not have adopted this strategy and 
doctrine, and would not be expending resources to modernize and expand 
their non-strategic nuclear forces (which are already approximately ten 
times larger than NATO's), if they perceived current U.S. and NATO 
nuclear posture as sufficient to deter such nuclear use.
    The 2018 Nuclear Posture Review took a deliberate threat-policy-
posture approach to examine the strategic environment. The NPR 
determined that our deterrent approach must be tailored and flexible to 
address today's challenges and future uncertainty.
    Low yield weapons are a critical piece of our force structure and 
defense posture but are currently limited to our bomber force--a low 
yield ballistic missile (LYBM) weapon & sea launched cruise missile 
(SLCM) provide unique attributes to enhance existing capabilities:
    <bullet>  LYBM: survivable, prompt, can strike targets that are 
heavily defended against bombers and air-delivered weapons.
    <bullet>  SLCM: assured response capability, forward-deployable, 
non-host nation dependent, and provides additional diversity in 
delivery platforms, range, survivability, and future hedging.
    Reintroducing a low-yield option for our sea leg addresses 
adversary perception of advantage, improves our nuclear deterrent, 
allows the U.S. to negotiate from a position of strength, and bring an 
enhanced assurance element to our allies.

                                  [all]
</pre></body></html>
